                                                NATIONAL SCIENCE FOUNDATION
                                                 OFFICE OF INSPECTOR GENERAL
                                                   OFFICE OF INVESTIGATIONS

                                           CLOSEOUT MEMORANDUM

Case Number: A11080054                                                                    Page 1 of 1



                                                    Closeout

                We received an allegation that an NSF employee 1 misrepresented the hours she worked
         over approximately a two-year period. We reviewed records and found merit to the allegation.
         Consequently, we sent a memorandum to her supervisor with the corresponding records, so that
         her supervisor could take appropriate action. We asked to be notified when the matter had been
         resolved.

                The employee's Division Director2 met with the employee to discuss the matter.
         Subsequently, the Division Director commemorated the discussion in an email which was sent to
         the employee, reiterating NSF's policy on core hours, establishing set work hours for the
         employee and reminding her to provide advance notice to her supervisor when she intends to
         telework.

                This memo and the attached memo to the employee's supervisor constitute the case
         closeout. Accordingly, this case is closed.




NSF OIG Form 2 (11102)
                  National Science Foundation • Office of Inspector General
                 4201 Wilson Boulevard, Suite II-705, Arlington,Virginia 22230


                                           MAR 2 0 2013

PERSONAL AND CONFIDENTIAL

        To:


    From:
               Assistant Inspector General for Investigations, OIG

  Subject:


Please note: This memorandum contains confidential personal information and it should be
disclosed only to individuals who must have knowledge of its contents to address this matter.

       This memorandum concerns an NSF employee under your supervision during the time
when ITAS remained in operation. Our office received information t h a t - may have
claimed to be at work prior to her arrival and/or after her departure, thereby, falsifying her actual
work hours/time. We reviewed- IT AS, WMATA, and proximity card records.

        We reviewed her IT AS records from December 2009 -January 2012 (Tab 1) and found
that she manually adjusted her ITAS sign-in time frequently and/or failed to sign in at all; she
often failed to sign out. We noted that for the 20-month period from January 201 0-August 2011,
-            failed to either sign-in or out 142 times out of 313 days she was at work. In addition
to those times, she signed neither in nor out on 26 days.

        We compared- SmarTrip card records (Tab 2) from WMATA over a 4 month
period (8/19/10-12/28/10) with her ITAS records. During that time p e r i o d , - failed to
sign in and/or out 46 times over 39 days. Because she used her SmarTrip card to commute to
Ballston on only 3 of those 39 days, we were only able to compare 3 days. Discrepancies
occurred on each day:

    •   On 9/2112010,- signed in at 7:24AM. She did not sign out, causing ITAS to
        auto-credit her for a full 8 (8.5) hour day. She used her SmarTrip card to enter the
        Ballston Station turnstile at 3:42 PM and no later timekeeper modifications to the full day
        are apparent.
    •   On 10/20/2010,- signed neither in nor out using ITAS. However, she used her -
        SmarTrip card out ofBallston Station at 7:39AM entered Ballston station at 2:25PM.
          ITAS automatically allowed a full day due to absence of entered time. In an email to her
          timekeeper and supervisor on 10/29/2011, she told them to credit her for working 7AM-
          5PM for 10/20/2010, a clear misrepresentation of her hours worked.
      •   On 12/15/2010,- signed in at 6:58AM, but did not sign out. She used her
          SmarTrip card to enterthe Ballston Station turnstile at 1:11PM. An email sent the
          following day reported to her timekeeper that she worked until 1:15PM, which
          misrepresented her work time.

          In the same 4 month period (8/19/1 0-12/28/1 0 ) , - earned 30.25 credit hours on
days when she modified her timecard to reflect an earlier arrival; she earned 16.75 credit hours
on days she properly used ITAS.

       Last, we reviewed entry timestamps from                      F Security Access and ID Card
(Proximity Card) for two months (June-July 2011).                  Proximity Card usage was
consistent during that time period, with typically one use per day from the same Stafford I entry.
We noted:
   • When - m o d i f i e d her IT AS sign-in time (17 times), the Proximity Card
       timestamp never preceded her modified sign-in time.
   • W h e n - used ITAS' time to sign-in without modifying her time (15 times), the
       Proximity Card timestamp precedes her sign-in in all cases but one.
   • On days when she signed into ITAS without modifying her start time, she entered the
       building, on average, 6 minutes before her ITAS sign-in. By contrast, when modifying
       her sign-in time, her one Proximity Card timestamp was an average of 31 minutes after
       her modified ITAS sign-in time.                                    .
While Proximity Card data is certainly not definitive, it creates the appearance t h a t -
was not forthright when modifying her sign-in times on ITAS.

        We are referring this matter to you for your management action as you deem appropriate.
Please let me lmow if you have any questions. We request that you inform us by April19, 2013
what action your office takes regarding this matter.


Attachments:

CD:       Tab 1- ITAS records and timecards
          Tab 2 - SmarTrip use with times entering/exiting Ballston Station
          Tab 3 - Security access/Proximity Card records

cc:

          Clifford Gabriel, Office of the Director's Liaison to OIG




                                                  2
